U.S. Department of Labor               Office of Inspector General
                                       Washington, DC. 20210




      February 27, 2006



      MEMORANDUM FOR:            EMILY STOVER DEROCCO
                                 Assistant Secretary for Employment
                                  and Training




      FROM:                      ELLIOT P. LEWIS
                                 Assistant Inspector General
                                  for Audit

      SUBJECT:                   Grant Implementation Issues
                                 National Emergency Grant No. EM-15066-05-60
                                 Issued to the Mississippi Department of Employment
                                 Security for Hurricane Katrina Relief
                                 Management Letter No. 04-06-004-03-390

      INTRODUCTION

      Normally a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse. We will also use this medium to provide
      positive feedback regarding grant operations.

      BACKGROUND

      On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
      Alabama coasts resulting in a national disaster. In response to this disaster, on
      September 2, 2005, ETA awarded the State of Mississippi a National Emergency
      Grant (NEG) to create 10,000 temporary jobs for dislocated workers. The $50
      million grant, administered by the Mississippi Department of Employment
      Security (MDES), had an initial release of $16.7 million.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that, once the NEG to MDES is fully implemented and
accrued expenditures reported, financial or performance audits of the subject
NEG may be performed.

The State has four Local Workforce Investment Areas (LWIA), all of which
received NEG funds. Although funds were distributed to all four areas, there was
a weighting towards the areas most heavily impacted by the hurricane.

OBJECTIVE, SCOPE, AND METHODOLOGY

During the period of October 25, 2005, through November 10, 2005, we
performed work at MDES, two LWIAs--Southcentral Mississippi Works and Twin
Districts--and five temporary jobs worksites (two for Southcentral Mississippi and
three for Twin Districts.) According to LWIA records, the selected LWIAs had 37
worksites and enrolled 105 participants. The worksites were established to
provide public service employment to evacuees and other eligible participants.
For the 5 temporary worksites we visited, we interviewed 17 NEG participants.
Eight of the17 participants interviewed were considered evacuees.

Our goal is to assist ETA in its efforts to ensure that NEG funded programs are
effective and to reduce the potential for fraud, waste, and abuse.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

Positive Issue:

For the five worksites we visited, the positions that have been filled in each local
area are generally administrative positions, many of which are Disaster Recovery
Center managers. The individuals filling these positions are responsible for
overseeing the Centers, ensuring peace is maintained within them, and ensuring
all agencies that are supposed to be represented at the Centers are present.
These Disaster Recovery Center managers also have been helping individuals
obtain official documents and referring them to other agencies.

Potential Issues:

   •   TempStaff underpaid workers by paying wages at the Federal
       minimum wage rate, and overcharged the grant by billing based on
       an agreed-upon wage rate rather than the lower, actual wage rate, in
       some instances.



                                         2
The NEG’s public service employment component was being operated by a
contractor, TempStaff.1 The Central Mississippi Planning and Development
District, the fiscal agent for Southcentral Mississippi Works, signed a $2.5 million
cost reimbursement contract with TempStaff. Likewise, the Southern Mississippi
Planning and Development District, fiscal agent for the Twin Districts signed a
cost reimbursement contract worth $4 million with TempStaff, which then
partnered with the CPI-Group to staff the Twin Districts’ geographic area. These
two temporary agencies are the employers of record for the participants.

According to the signed contracts, TempStaff’s billing rate is 30.5 percent of all
wages paid to eligible workers.2 This rate includes TempStaff’s obligation to pay
workers’ compensation, unemployment insurance, and all applicable taxes.
However, TempStaff underpaid workers and overcharged the grant when
workers quit their positions without providing proper notification. In these
instances, TempStaff reduced the employees’ hourly wages from the agreed-
upon wage rate to the Federal minimum wage, which is a contractual violation of
their agreement to pay workers the prevailing wage rate. Further, even though
the wages paid were less than the agreed-upon wage rate, TempStaff continued
to bill their 30.5 percent rate using the agreed-upon wage rate rather than what
was actually paid. TempStaff officials informed us that this was their normal
business practice, but they agreed to discontinue this practice in the case of the
NEG.

    •   The State overestimated the number of public service employment
        positions needed.

The numbers of identified worksites and temporary workers are growing every
week, but the number of workers is not anticipated to reach anywhere near the
original estimate of 10,000 workers statewide. In fact, the State plan’s budget for
these positions is now at about 1,000 workers. We were told by State and Local
officials that the reduced number of workers expected was due to an
overestimation of the number of positions needed. We were further informed that
both public and private employers were having difficulty finding workers willing to
fill open positions.

    •   Two individuals hired at one worksite were not eligible for their
        public service employment positions.



1
  The two local areas we visited sought and received authorization from MDES for sole source
procurement of temporary employment services from TempStaff. The use of sole source
procurement was justified due to the existence of a public emergency and the significant delay
that competitive procurement would cause.
2
  We contacted two other temporary employment agencies and found that TempStaff’s billing rate
was competitive.


                                              3
One worksite we visited in Lucedale, Mississippi, was employing two people who
were recruited out of retirement to fill administrative positions with the County.
Each of these participants told us they were not working or actively seeking work
prior to the hurricane.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training evaluate
the issues raised in this Management Letter to determine how they might be
addressed by ETA and/or State officials.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that a Katrina Team has been organized by the
Office of National Response to assist regional offices and states to resolve
questions or concerns as they arise. The Assistant Secretary specifically agreed
to: (1) review TempStaff contracts and billings and ensure that any overcharge to
the grant and/or underpayment to participants be rectified; (2) follow up on the
State’s planning assumptions for public sector employment positions and request
that a modification request be submitted to the NEG grant officer, if necessary;
and (3) ensure that the Atlanta Regional Office works with the grantee to
reclassify any ineligible participants as staff employees, as appropriate, in order
to carry out the purposes of the project. The Assistant Secretary’s response is
included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of the results of ETA’s actions as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this final Management Letter, please
contact Michael Yarbrough, Regional Inspector General for Audit, in Atlanta at
(404) 562-2341.

Attachment

cc:   Steven Law
      Deputy Secretary




                                         4
Helen Parker
Regional Administrator

Tommye Dale Favre
Executive Director, Mississippi Department of Employment Security

Phyllis Newby
ETA Audit Liaison




                                5
6
7
